TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                Additional Enhancements Could Improve Tax
                Compliance of Employees Who Receive Tips



                                      September 15, 2006

                              Reference Number: 2006-30-132




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                               DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            September 15, 2006


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Additional Enhancements Could Improve Tax
                             Compliance of Employees Who Receive Tips (Audit # 200530029)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) Tip Rate
 Determination and Education Program (the Tip Program). The overall objective of this review
 was to determine the progress the IRS has made in improving the Tip Program and expanding it
 to other industries where tipping is customary. Specifically, we reviewed the actions taken by
 the IRS based on the recommendations from a previous Treasury Inspector General for Tax
 Administration report.1

 Impact on the Taxpayer
 Although the IRS has made some enhancements to the Tip Program since our prior review,
 additional improvements could help achieve a higher level of tip income reporting compliance.
 We estimate the IRS could achieve $342 million in additional tax assessments over 5 years if it
 resumes soliciting new tip agreements with the Cosmetology industry and expands the
 agreements to the Taxi/Limo industry.

 Synopsis
 The reported amount of tip income increased from $8.52 billion for Tax Year (TY) 1994 to over
 $19 billion for TY 2004. However, the IRS has not consistently monitored the establishments in


 1
  Opportunities Exist to Improve the Tip Rate Education and Determination Program (Reference
 Number 2001-30-076, dated May 2001).
                     Additional Enhancements Could Improve Tax Compliance of
                                    Employees Who Receive Tips



the Food and Beverage and Cosmetology industries that had entered into tip agreements since
Fiscal Year (FY) 2000 to determine if tip agreements secured actually increased tip income for
these establishments.
Due to the voluntary nature of participation and limited staffing resources, disparity over the
number of tip agreements secured in various locations across the country has continued to be an
issue since our prior report. The IRS does not plan to actively solicit any new tip agreements
beyond the Gaming industry in FY 2006. The majority of FY 2006 Tip Program staffing will be
expended on soliciting and monitoring tip agreements with the Gaming industry and on audits of
casino employees. Additionally, multiple realignments affected the transition of the outreach
portion of the Tip Program from the Compliance function to the Taxpayer Education and
Communication function. The Tip Program has not expanded to the Taxi/Limo industry.
The IRS has not yet established an automated system to identify business entities required to file
an Employer’s Annual Information Return of Tip Income and Allocated Tips (Form 8027).2 The
IRS recently manually matched the Employer’s Quarterly Federal Tax Return (Form 941) data to
the database of TY 2004 Forms 8027, identifying 33,685 employers as potential Form 8027
non-filers. However, the Form 8027 database data fields are not always accurate, and only the
first quarter of TY 2004 Forms 941 have been matched to this database. Identification of
Form 941 non-filing was not prioritized.
The IRS has automated the tracking of tip agreements for the Food and Beverage and
Cosmetology industries. This automated database is part of a system that is not fully operational
but is now funded with a tentative date of FY 2008 for full implementation. However, the
Gaming industry tip agreements are maintained in a separate database that does not
accommodate all necessary information, preventing consistent use of the information.
The Tip Program does not reach some small businesses in the Food and Beverage industry. To
address this, the IRS developed the Attributed Tip Income Program Revenue Procedure, which
the Department of the Treasury approved on July 11, 2006. The IRS plans to test it for 3 years.
A similar Revenue Procedure is needed for small businesses in other industries.

Recommendations
We recommended the Director, Specialty Programs, ensure adequate staffing remains available
for monitoring tip agreements for all industries and use the results of monitoring to measure
compliance; prepare a workforce plan to determine the necessary staffing levels needed to

2
  Form 8027 is an information return filed by large food and beverage establishments when the employer is required
to make annual reports to the IRS on receipts from food or beverage operations and tips reported by employees.
Generally, a large employer is one who employs more than 10 employees on a typical business day.



                                                                                                                 2
                   Additional Enhancements Could Improve Tax Compliance of
                                  Employees Who Receive Tips



accomplish Tip Program goals; ensure the automated tracking system remains funded and, once
fully operational, includes the Gaming industry tip agreements; implement data verification
procedures for Form 8027 data and prioritize identifying Form 941 non-filers; once the
Attributed Tip Income Program Revenue Procedure is tested with the Food and Beverage
industry for 1 year, consider developing a similar Revenue Procedure for small businesses in
other industries; and establish an action plan to outline and monitor all planned actions, potential
results, responsible individuals, staff to be allocated, and planned completion dates.

Response
IRS management agreed with all of our recommendations. The Director, Specialty Programs,
will ensure consistent review and monitoring of existing and future voluntary agreements is done
for all industries. The data from monitoring will be used to measure compliance. A Tip
Program strategy will be developed to ensure the Program has sufficient staffing and resources to
further tip compliance. Procedures will be developed to enhance current data verification
procedures regarding Forms 8027. Potential Form 941 non-filers will be identified along with
potential Form 8027 non-filers. IRS management will ensure development of the automated
tracking system meets its estimated completion date of October 2008. The system will include
the Gaming industry tip agreements. The Attributed Tip Income Program Revenue Procedure
was issued on July 28, 2006, for small food and beverage establishments. When sufficient data
have been captured after a 3-year pilot, they will be analyzed to determine if a similar Revenue
Procedure for other industries would be beneficial. An action plan to monitor progress will be
developed and will be consistent with information included in the Tip Program strategy.
IRS management did not agree with our estimate of additional tax assessments because they
were unable to validate our estimate and the assumption that each taxpayer contact will result in
full compliance. Management’s complete response to the draft report is included as Appendix V.

Office of Audit Comment
We believe our estimate of potential additional tax assessments is valid. Our calculation was
based on the FY 2005 methodology the IRS uses for selecting Cosmetology industry businesses
for tip agreement leads and the actual results for tip examinations.
In addition, although the IRS’ suggested evaluation period for the Attributed Tip Income
Program Revenue Procedure is longer than we envisioned in our recommendation, we agree it is
not unreasonable to expect such data capture and analysis to take up to 3 years.
Copies of this report are also being sent to IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (202) 622-8500.
                                                                                                   3
                         Additional Enhancements Could Improve Tax Compliance of
                                        Employees Who Receive Tips




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Some Progress Has Been Made to Enhance the Tip Program ......................Page 3
          Additional Methods Could Be Used to Measure the Effectiveness
          of the Tip Program ........................................................................................Page 4
                    Recommendation 1:........................................................Page 6

          A Workforce Plan Is Needed to Ensure Staffing Levels Are
          Adequate to Achieve Tip Program Goals .....................................................Page 6
                    Recommendation 2:........................................................Page 11

          The Processing of Tip Program Data Needs Additional Improvement ........Page 11
                    Recommendations 3 and 4: ..............................................Page 13

          A Method to Increase Tip Reporting for All Small Businesses Is
          Needed ..........................................................................................................Page 14
                    Recommendation 5:........................................................Page 14

          An Action Plan Is Needed to Ensure Adequate Monitoring of
          Future Progress .............................................................................................Page 15
                    Recommendation 6:........................................................Page 16


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 17
          Appendix II – Major Contributors to This Report ........................................Page 20
          Appendix III – Report Distribution List .......................................................Page 21
          Appendix IV – Outcome Measure ................................................................Page 22
          Appendix V – Management’s Response to the Draft Report .......................Page 24
         Additional Enhancements Could Improve Tax Compliance of
                        Employees Who Receive Tips




                     Abbreviations

ATIP              Attributed Tip Income Program
EmTRAC            Employer-designed Tip Reporting Alternative Commitment
FY                Fiscal Year
GITCA             Gaming Industry Tip Compliance Agreement
IRS               Internal Revenue Service
SB/SE             Small Business/Self-Employed
SWETRS            Service Wide Employment Tax Research System
TEC               Taxpayer Education and Communication
TIGTA             Treasury Inspector General for Tax Administration
TRAC              Tip Reporting Alternative Commitment
TRDA              Tip Rate Determination Agreement
TY                Tax Year
U.S.              United States
                  Additional Enhancements Could Improve Tax Compliance of
                                 Employees Who Receive Tips




                                     Background

Historically, the Internal Revenue Service (IRS) has been concerned with employees not
reporting tips earned in industries in which tipping is customary. An IRS study showed that the
amount of tip income reported in Calendar Year 1993 was less than one-half of the tip income
amount, leaving over $9 billion of unreported income.
As a result, the IRS developed the Tip Rate Determination and Education Program (the Tip
Program), which is a voluntary compliance program originally developed in 1993 for the Food
and Beverage industry. It was modeled after the tip compliance agreement used by casinos in
the former IRS Nevada District. The Tip Program was extended to the Cosmetology industry in
1997 and the Barber industry in 2000. Since the Tip Program was introduced, voluntary
compliance has increased significantly. In Tax Year (TY) 1994, tip wages reported were
$8.52 billion. For TY 2004, the amount exceeded $19 billion. To date, over 16,000 employers,
representing over 47,000 individual establishments, have entered into tip agreements.
The Tip Program offers employers multiple voluntary agreement options designed to provide
nonburdensome methods for employers and employees to comply with tip reporting laws.
Options include:
   •   A Tip Rate Determination Agreement (TRDA) – Under a TRDA, the IRS will work with
       the employer to arrive at a tip rate for the various occupations in the industries in which
       tipping is customary. At least 75 percent of tipped employees must sign a participation
       agreement consenting to participate. Participating employees report tips at or above the
       rate determined in the agreement.
   •   A Tip Reporting Alternative Commitment (TRAC) – Under a TRAC, the employer
       agrees to institute and maintain a quarterly educational training program that trains newly
       hired employees and periodically updates existing employees as to their reporting
       obligations with respect to tips.
   •   An Employer-designed Tip Reporting Alternative Commitment (EmTRAC) – This
       program was initiated in December 2000 and allows any food or beverage establishment
       the opportunity to develop its own tip compliance program. An EmTRAC maintains the
       same filing, reporting, and educational requirements as an IRS-administered TRAC.
       Employers must apply in writing to obtain IRS approval of their programs and receive the
       same benefits and protections afforded under a TRAC. Very few EmTRACs have been
       submitted and approved.
   •   A Gaming Industry Tip Compliance Agreement (GITCA) – A GITCA is specifically
       designed for employers in the Gaming industry to determine tip rates for various

                                                                                            Page 1
                    Additional Enhancements Could Improve Tax Compliance of
                                   Employees Who Receive Tips



        occupations in the establishment by using historical tip data. These rates are subject to
        review and validation by the IRS. At least 50 percent of the tipped employees in the
        establishment must participate by signing a Model Gaming Employee Tip Reporting
        Agreement.
Participation in a tip agreement provides benefits for both employees and employers. Assuming
that the employer recognizes higher income, employees would be eligible for greater Social
Security income and increased unemployment benefits and worker’s compensation. The
increased income would also improve opportunities for approval when employees apply for
loans. If the employer has a retirement contribution plan, there may be additional funding for
employees. Once an employee signs a TRDA participation agreement, the employee will not be
audited on future tips above the agreed tip rate during the agreement period. If an employee does
not sign a participation agreement with an employer that has a TRDA, the employee will be
subject to a possible audit. Under a TRAC agreement, tip examinations may occur for only those
employees who underreport their tip income.
An employer that signs a TRDA or TRAC agreement will be deemed to be in compliance,
meaning the IRS will not audit the employer’s payroll tax returns for periods prior to the
agreement or for those years covered by the agreement, as long as the employer remains in
compliance with the agreement. Both programs prohibit “employer-only assessments”
(assessments without auditing the employee(s)) during the period the agreement is in effect.
Thus, participating in these agreements reduces uncertainty for employers.
In May 2001, we issued a report on the Tip Program.1 Results showed that, while the amount of
tip income reported to the IRS had consistently increased, additional enhancements could be
made to increase compliance. We recommended the IRS reemphasize the Tip Program’s
importance, provide adequate oversight, ensure proper transfer of the Tip Program from the
Employment Tax Compliance function to the new Taxpayer Education and Communication
(TEC) function, and expand the Tip Program to other industries in which tipping is customary.
This review was performed at the Small Business/Self-Employed (SB/SE) Division Stakeholder
Liaison Headquarters office and Specialty Programs office in New Carrollton, Maryland, during
the period October 2005 through May 2006. The audit was conducted in accordance with
Government Auditing Standards. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




1
 Opportunities Exist to Improve the Tip Rate Education and Determination Program (Reference
Number 2001-30-076, dated May 2001).



                                                                                              Page 2
                     Additional Enhancements Could Improve Tax Compliance of
                                    Employees Who Receive Tips




                                     Results of Review

Some Progress Has Been Made to Enhance the Tip Program
The IRS has enhanced the Tip Program since our prior review. As of March 2006, the IRS had
successfully secured 14,657 tip agreements for 41,606 establishments in the Food and Beverage
industry and 1,686 tip agreements for 6,206 establishments in the Cosmetology industry. The
IRS has also been successful in negotiating and securing tip agreements from 213 casinos in
17 States coast to coast. As of December 2005, 90 Gaming industry tip agreements had been
secured, and an additional 63 agreements were in the process of being secured.
The IRS automated the tracking of tip agreements for the Food and Beverage and Cosmetology
industries by creating the TRAC/TRDA Inventory Delivery System database, which is part of a
larger program entitled the Service Wide Employment Tax Research System (SWETRS). The
SWETRS is a web-based system that, when fully operational, will allow cross-matching of
internal IRS program databases, identifying noncompliant employment taxpayers for potential
audits. It is currently funded for completion in Fiscal Year (FY) 2008. Gaming industry tip
agreements are maintained in a separate database that is also being upgraded.
In January 2006, the IRS established a Centralized Data Unit with three management and
program assistants responsible for monitoring the tip agreements. Effective October 1, 2006, the
SB/SE Division Employment Tax function is establishing an Employment Tax Monitoring and
Support Unit at the Cincinnati Campus.2 The three Centralized Data Unit employees will
transition to this new Unit, along with two additional employees. Their responsibilities will
include all monitoring duties related to Employment Tax Programs and will not be exclusive to
monitoring tip agreements. New training material is being developed. Both Program placement
and standardized training material will enhance consistency in monitoring practices.
Beginning in FY 2006, the IRS created a direct line-reporting authority from the Headquarters
Employment Tax Division over the Tip Program’s operations and policy, which management
believes has created a greater consistency in the application of the Tip Program’s expectations
and guidelines. During FYs 2004 and 2005, the IRS trained over 200 managers, tax compliance
officers, tax examiners, revenue agents, and employment tax specialists from the Employment
Tax Program on the Audit Technique Guide for tip rate determinations. Over 100 Stakeholder
Liaison Headquarters office tip tax specialists and managers received training on conducting Tip

2
 Campuses are the data processing arm of the IRS. They process paper and electronic submissions, correct errors,
and forward data to the Computing Centers for analysis and posting to taxpayer accounts.



                                                                                                          Page 3
                            Additional Enhancements Could Improve Tax Compliance of
                                           Employees Who Receive Tips



Program outreach and education and securing TRAC agreements. Compliance personnel are
responsible for the enforcement aspects of the Tip Program and for conducting examinations of
employer and employee tax returns to ensure tip reporting requirements are met.
The IRS has made information regarding the Gaming, Cosmetology, and Food and Beverage
industries available for the general public through its web site (IRS.gov). The web site includes
information on the various types of tip agreements and publications on reporting and tracking tip
income for both the employer and employee.
All of these enhancements have improved the Tip Program. However, additional improvements
could help the IRS reach a higher level of tip income reporting compliance.

Additional Methods Could Be Used to Measure the Effectiveness of
the Tip Program
The SB/SE Division continues to gauge the success of the Tip Program using the total Social
Security Tip Wages reported on the Employer’s Quarterly Federal Tax Returns (Form 941) for
all industries. As shown in Figure 1, the reported amount of tip income increased from
$8.52 billion for TY 1994 to $19.15 billion for TY 2004.
                    Figure 1: Total Tip Income Reported on Forms 941 – All Industries
                     $20                                                                                    $19.15
                                                                                                   $18.42
                     $18                                                                      $16.61
                                                                                     $15.52
                     $16                                                    $14.59
                                                                      $13.54
                     $14                                     $12.41

                     $12                            $11.21
         Billions




                                           $10.19
                                   $9.45
                     $10   $8.52

                      $8

                      $6

                      $4

                      $2

                      $0
                           1994 1995 1996 1997 1998 1999 2000 2001 2002 2003 2004

                                                               Tax Year

            Source: SB/SE Division Specialty Programs function.3


3
    We did not verify or validate the IRS data.



                                                                                                                     Page 4
                         Additional Enhancements Could Improve Tax Compliance of
                                        Employees Who Receive Tips



The IRS has acknowledged that there are limitations to measuring tip income reported by
industry because many tax returns have incorrect or missing industry codes. It specifically tracks
tip income from large food and beverage establishments using information from the Employer’s
Annual Information Return of Tip Income and Allocated Tips (Form 8027).4 As shown in
Figure 2, the total amount reported on Forms 8027 increased from $3.94 billion for TY 1993 to
$9.18 billion for TY 2003, the latest year for which data were available.
                              Figure 2: Total Tip Income Reported on Forms 8027

                        $10                                                                                 $9.18
                                                                                                    $8.89
                        $9                                                                  $7.86
                                                                              $7.71 $7.82
                        $8                                            $7.23
                        $7                                    $6.45
                                                      $5.91
             Billions




                        $6                    $5.22
                                      $4.73
                        $5
                              $3.94
                        $4
                        $3
                        $2
                        $1
                        $0
                              1993 1994 1995 1996 1997 1998 1999 2000 2001 2002 2003

                                                               Tax Ye ar

             Source: SB/SE Division Specialty Programs.5

These increases seem to indicate the Tip Program is effective but cannot alone be considered
adequate for measuring the Program’s success. A contributing factor could be that
restaurant-industry employment has increased from 10 million in 1996 to 12.5 million in 2006.
Also, tip income for the Food and Beverage industry may be increasing because more
two-income households with families are opting for the convenience of dining out. In addition,
the professional beauty services market in the United States (U.S.) is a $62-billion industry that
is continually growing and could also contribute to the gradual increase in tip income reported.
Due to lack of staff availability, the IRS has not consistently monitored those establishments in
the Food and Beverage and Cosmetology industries that have entered into tip agreements since
FY 2000 to determine if tip agreements secured actually increased tip income for these
establishments. Although the IRS will have five employees available to conduct monitoring of

4
  Form 8027 is an information return filed by large food and beverage establishments when the employer is required
to make annual reports to the IRS on receipts from food or beverage operations and tips reported by employees.
Generally, a large employer is one who employs more than 10 employees on a typical business day.
5
  We did not verify or validate the IRS data.



                                                                                                                    Page 5
                  Additional Enhancements Could Improve Tax Compliance of
                                 Employees Who Receive Tips



these tip agreements, their responsibilities are not exclusive to Tip Program monitoring. Such
monitoring of the agreements would provide additional assurance that IRS efforts are resulting in
increased compliance levels.

Recommendation
Recommendation 1: To measure the success of the Tip Program in improving tip income
reporting compliance, the Director, Specialty Programs, should ensure adequate staffing remains
available to monitor the tip agreements for all industries and use the results of monitoring to
measure compliance.
       Management’s Response: IRS management agreed with this recommendation. The
       Director, Specialty Programs, will ensure consistent review and monitoring of existing
       and future voluntary agreements is done for all industries, as a component of the overall
       Tip Program strategy. The goal is to have a dedicated staff of five employees assigned to
       monitor compliance with the various tip agreements. The data yielded from monitoring
       will be used to measure compliance.

A Workforce Plan Is Needed to Ensure Staffing Levels Are Adequate
to Achieve Tip Program Goals
Due to the voluntary nature of participation and limited staffing resources, disparity over the
number of tip agreements secured in various locations across the country has continued to be an
issue since issuance of our prior report in May 2001. As of March 2006, the TRAC/TRDA
database showed the number of tip agreements per State ranged from 0 to over 1,400 for the
Food and Beverage industry. In FY 2006, the IRS does not plan to actively solicit any new tip
agreements except in the Gaming industry. Outreach has been limited to conducting broad-based
efforts, including speeches and seminars, and workshops. However, if contacted by a business,
the IRS will work with the taxpayer to secure an agreement.

Tipping noncompliance in the Cosmetology and Taxi/Limo industries is not being
addressed
Based on a November 2004 research project, which recommended the IRS not spend a
disproportionate amount of resources on the Cosmetology industry, the IRS discontinued
soliciting and working leads for that industry. The IRS research concluded Cosmetology
industry filers make up a very small portion of the total business filers (0.6 percent) and
primarily have low-dollar gross receipts. Also, the IRS never expanded the Tip Program to the
Taxi/Limo industry.
According to the U.S. Bureau of Labor Statistics, overall employment of barbers, cosmetologists,
and other personal appearance workers is projected to grow about as fast as the average for all
occupations through 2012. In addition, Figure 3 indicates a survey conducted by the U.S.
                                                                                          Page 6
                         Additional Enhancements Could Improve Tax Compliance of
                                        Employees Who Receive Tips



Bureau of Labor Statistics in May 2004 showed careers in this field are paid higher annual
salaries than those in the Food and Beverage and Gaming industries.
              Figure 3: Occupational Employment Statistics Survey – May 2004
                                          Total         Mean                       Total Estimated Annual
        Occupations in Which            Estimated       Hourly      Mean Annual     Income for Estimated
        Tipping Is Customary           Employment       Wage          Wage           Total Employment
     Barbers                                 15,830      $12.04          $25,040               $396,383,200
     Hairdressers, Hairstylists, and
     Cosmetologists                         331,260       $10.95         $22,770             $7,542,790,200
     Manicurists and Pedicurists             38,030        $9.65         $20,080              $763,642,400
     Concierges                              17,310       $11.93         $24,820              $429,634,200
     Baggage Porters and Bellhops            55,910       $10.46         $21,760             $1,216,601,600
     Taxi Drivers and Chauffeurs            132,650       $10.34         $21,510             $2,853,301,500
     Bartenders                             463,000        $8.29         $17,240             $7,982,120,000
     Waiters and Waitresses               2,219,850        $7.66         $15,930            $35,362,210,500
     Gaming Dealers                           82,560        $7.89        $16,420             $1,355,635,200
    Source: U.S. Bureau of Labor Statistics web site – May 2004.

A review of IRS records for TY 2004 business tax returns6 showed $13.6 billion and $4 billion in
gross receipts were reported for the Cosmetology and Taxi/Limo industries, respectively (see
Figure 4). Using the SB/SE Division’s FY 2005 criteria for selecting Cosmetology industry
leads, we estimate both industries are potentially underreporting millions of dollars in tip income
for their employees.




6
 Business returns included only TY 2004 U.S. Corporation Income Tax Return (Form 1120), U.S. Corporation
Income Tax Return for an S Corporation (Form 1120S), and U.S. Return of Partnership Income (Form 1065). We
did not include data from U.S. Individual Income Tax Returns (Form 1040) with a Profit or Loss From Business
(Schedule C).



                                                                                                      Page 7
                       Additional Enhancements Could Improve Tax Compliance of
                                      Employees Who Receive Tips



Figure 4: TY 2004 Business Returns Reporting Wage and Tip Income, by Industry
                                                    Returns                                            Total Returns
                                                    Meeting                                           Claiming No Tip
                                                   the SB/SE                                             Income or
                    Total                          Division’s     Returns Meeting                     Meeting Part of
                   Business                         FY 2005         Part of the        Returns           the SB/SE
                   Returns       Total Gross        Selection     SB/SE Division     Claiming No          Division
      Industry    (TY 2004)       Receipts          Criteria          Criteria       Tip Income           Criteria
    Cosmetology      51,288    $13,626,177,115          4,335      1,822   42.03%   2,059     47.5%    3,881     89.5%

    Taxi/Limo        16,477    $ 4,284,779,430          1,103        52    4.71%      881      80%       933     84.6%

    Totals           67,765    $17,910,956,545          5,438      1,874   34.5%    2,940     54.1%    4,814     88.5%
Source: Treasury Inspector General for Tax Administration (TIGTA) analysis of the IRS Business Return
Transaction File7 for TY 2004.

Based on these results, we determined in Figure 5 the differences in the amount of potential tip
income that should have been reported versus the amount actually reported by the employers for
these industries.
                       Figure 5: TY 2004 Actual and Potential Tip Income
                  Total Returns Claiming
                    No Tip Income or
                    Meeting Part of the
                     SB/SE Division’s                                Potential Tip Income           Difference in
                         FY 2005                  Actual Tip           (SB/SE Division         Potential Versus Actual
      Industry      Selection Criteria         Income Reported            Criteria)             Tip Income Reported
    Cosmetology                      3,881          $99,537,485                $309,201,683                $209,664,199
    Taxi/Limo                         933            $1,003,127                $44,980,363                 $43,977,236
    Totals                          4,814          $100,540,612               $354,182,046                $253,641,435
Source: TIGTA analysis of the IRS Business Return Transaction File for TY 2004.

As shown in Figure 5, the potential exists to increase reported tip income for these industries by
approximately $254 million if taxpayers who reported no tip income or underreported their tip
income were in compliance with an amount equal to the SB/SE Division selection criteria. As
shown in Figure 6, results of employee tip income audits for FY 2005 for the Cosmetology
industry showed 11 percent resulted in no change to the original tax assessment. Therefore, we
reduced our estimate of $254 million by 11 percent,8 which resulted in potential additional
reported tip income of approximately $226 million for both industries.


7
  The Business Return Transaction File contains the line items transcribed from all business tax returns and their
accompanying schedules or forms as the returns are processed.
8
  We also applied this percentage to the Taxi/Limo industry figures because the IRS did not have any tip income
audit results available for this industry.



                                                                                                               Page 8
                        Additional Enhancements Could Improve Tax Compliance of
                                       Employees Who Receive Tips



We estimated the income tax due9 on $226 million would be $33.9 million per year.
Additionally, Social Security and Medicare taxes10 would be $34.5 million per year, for a total of
$68.4 million per year. Over a 5-year period, the IRS could assess additional taxes of
approximately $342 million. Appendix IV contains additional information.
Although the IRS’ November 2004 research concluded the data do not support an increase in the
expenditure of compliance resources for examinations in the Cosmetology industry, audit
information provided by the IRS for FY 2005 (see Figure 6) showed similar dollars per return for
the Cosmetology, Food and Beverage, and Gaming industries.
         Figure 6: FY 2005 Results of Employee Tip Income Audits, by Industry
                                                                  Dollars           Average Dollars Per
               Industry              Closures    No Change        Assessed               Return
    Gaming                               2025         22%          $4,135,070                       $2,042
    Food and Beverage                     436          4%          $1,173,071                       $2,691
    Cosmetology                            37         11%             $83,884                       $2,267
Source: SB/SE Division Specialty Programs function.

The IRS needs to resume soliciting tip agreements for the Cosmetology industry, begin soliciting
tip agreements for the Taxi/Limo industry, and provide for better balanced examination
coverage, which is one of its goals in FY 2006. However, the IRS is expending the majority of
FY 2006 Tip Program staffing on soliciting and monitoring tip agreements with the Gaming
industry and on audits of casino employees. Figure 6 shows there were over 54 times more
audits of Gaming industry employees than of Cosmetology industry employees and over 4 times
more audits than those of Food and Beverage industry employees.
The IRS selects casino employees’ tax returns for examination based on information provided by
their employers annually as part of the Gaming Industry Tip Agreement. A casino employee’s
tip income for the year is reported based on the last position held for the tax year. However, this
could inflate the amount of tip income reported because the employee may have held different
positions during the year, resulting in less tip income.
Employers in the Food and Beverage and Cosmetology industries who participate in a TRDA are
not required to submit an annual report for any employees who reported tips at a rate equal to or
greater than the rates established in the TRDA. They are required to submit an annual report for
all nonparticipating employees. Employers who participate in a TRAC agreement do not have a
requirement to file an annual report of tip income claimed by their employees. However, due to

9
  Taxes were based on the mean annual wage amounts for employees in the Cosmetology and Taxi/Limo industries
(see Figure 3) and calculated using the TY 2004 individual income tax rate of 15 percent.
10
   The TY 2004 Social Security and Medicare tax rate is 15.30 percent, which includes both the employee and
employer shares.



                                                                                                     Page 9
                     Additional Enhancements Could Improve Tax Compliance of
                                    Employees Who Receive Tips



lack of staff availability, the IRS has not consistently monitored those establishments in the Food
and Beverage and Cosmetology industries that have entered into these tip agreements since
FY 2000.

Limited staffing reduces Tip Program outreach activities
Multiple IRS realignments have affected transition of the Tip Program from the Compliance
function to the TEC function since 2003. During FY 2003, the outreach portion of the Tip
Program transitioned from the Compliance function to the TEC function, with the Compliance
function retaining policy responsibility. Also, the TEC function was restructured, resulting in a
50 percent reduction in the number of tax specialists. In FY 2004, the TEC function continued to
conduct education and outreach, securing TRAC agreements from selected restaurants and
cosmetology establishments. However, during the filing season,11 TEC function resources were
redirected to assist with filing season support. In FY 2005, the TEC function evolved into the
Stakeholder Liaison Headquarters office, in the Communications, Liaison, and Disclosure
function. At that time, a decision was made to no longer solicit tip agreements from the
Cosmetology industry and to have Stakeholder Liaison Headquarters office tax specialists secure
tip agreements exclusively from Food and Beverage industry establishments.
In FY 2006, due to limited staffing and the IRS’ created direct line-reporting authority from the
Headquarters Employment Tax Division over the Tip Program’s operations and policy, the Tip
Program was refocused. The Stakeholder Liaison Headquarters office is no longer required to
actively pursue TRAC agreements but is responsible for working or handling externally
generated (unsolicited) taxpayer requests for general tip information and TRAC and EmTRAC
agreements. This limitation could reduce the effect of the Tip Program on increasing reporting
compliance.
In all Federal Government agencies, employees are the most important asset in accomplishing
missions and achieving goals. The Government Performance and Results Act of 199312 calls for
agencies and their operating divisions to address human capital in the context of performance
management and requires annual performance plans to describe how agencies will use resources
to accomplish their strategic direction and program goals. As part of human capital
management, strategic workforce planning helps ensure organizations have the right number of
staff with the right skills and competencies in the right locations to fulfill their goals both now
and in the future, given the strategies they have adopted to carry out their missions.




11
  The filing season is the period from January through mid-April when most individual income tax returns are filed.
12
  Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
39 U.S.C.).



                                                                                                          Page 10
                  Additional Enhancements Could Improve Tax Compliance of
                                 Employees Who Receive Tips



Recommendation
Recommendation 2: To ensure the Tip Program provides better balanced coverage of
noncompliance, the Director, Specialty Programs, and the Director, Communications, Liaison
and Disclosure, should prepare a workforce plan to determine the necessary staffing levels
needed to maximize the Tip Program to accomplish its goals. Without a plan, the Specialty
Programs function cannot ensure it has the necessary workforce to meet its current program
goals and to manage changes in its programs and goals. Adequate staffing would provide a
better balance of examination coverage and allow the IRS to resume the solicitation of tip
agreements with the Food and Beverage and Cosmetology industries and to expand to other
industries such as the Taxi/Limo industry.
       Management’s Response: IRS management agreed with this recommendation. The
       Director, Specialty Programs, will collaborate with the Director, Communications,
       Liaison, and Disclosure, to develop a Tip Program strategy that will ensure the program
       has sufficient staffing and resources to further tip compliance. The strategy will include
       targeted education and outreach, communication efforts, taxpayer correspondence,
       examination coverage, and monitoring of existing agreements. The strategy will also
       include both short- and long-term planning and consideration of expansion to other
       industries, as warranted. In conjunction with these efforts, a work plan will be developed
       to set realistic program goals, identify barriers, project resource needs, and develop
       implementation strategies.
       IRS management did not agree with our estimate of additional tax assessments because
       they were unable to validate our estimate and the assumption that each taxpayer contact
       will result in full compliance.
       Office of Audit Comment: We believe our estimate of potential additional tax
       assessments is valid. Our calculation was based on the FY 2005 methodology the IRS
       uses for selecting Cosmetology industry businesses for tip agreement leads and the actual
       results for tip examinations.

The Processing of Tip Program Data Needs Additional Improvement

Identification of potential Form 8027 non-filers
The IRS has not yet established an automated system to identify business entities required to file
a Form 8027. For TY 2004, employers filed 54,183 Forms 8027 for large food and beverage
establishments. The IRS recently analyzed TY 2004 records by manually matching Forms 941
showing reported tip income and employment taxes for establishments that would meet the
requirement of filing a Form 8027 to a database of TY 2004 Forms 8027. This match identified
33,685 employers as potential Form 8027 non-filers. These non-filers were also matched against
the TRAC/TRDA database to ensure none of these taxpayers had an existing tip agreement. The
                                                                                          Page 11
                     Additional Enhancements Could Improve Tax Compliance of
                                    Employees Who Receive Tips



number of non-filers has increased from previous research conducted for TY 2001 by the SB/SE
Division Research function, which identified 27,040 potential non-filers. The IRS believes the
increase could be attributed to a high rate of restaurants going out of business after their first year
of operation.
A problem also exists with the accuracy of the data fields for the TY 2004 Form 8027 database.
Some of the files were transcribed using dollars and cents instead of only whole dollar amounts.
As many as 1,000 records were incorrectly transcribed. In March, 2006, an alert was issued
providing instructions to employees to enter all money amounts as dollars only. A data
verification procedure should be implemented to ensure employees are following these
procedures.

Identification of potential Form 941 non-filers
The IRS is also using the Form 8027 database to manually identify employers that may not have
filed their quarterly Forms 941 to report tip income and employment taxes due that they are
claiming on their annual Forms 8027. To date, the IRS has matched information for only the
first quarter of TY 2004 but has already identified 3,228 potential Form 941 non-filers. It is
important to reach these non-filers as early as possible to increase the chance of collecting the
employment taxes due. The IRS’ compliance objectives include collecting the proper amount of
tax at the least cost. Taxpayers expect the IRS to promote voluntary compliance by ensuring all
taxpayers promptly pay their fair share. Employers that do not pay their fair share of trust fund
taxes13 can have a significant impact on several Federal Government programs.

Upgrades for Tip Program databases
The TRAC/TRDA Inventory Delivery System database is included in the SWETRS program,
which is not yet fully operational. Once it is fully developed, the SWETRS should optimize the
examination case selection process for employment tax returns, increase workload efficiency,
and implement a standardized method of case selection for prefiling activities (outreach). This
automated System was recommended during our prior review. A lack of funding has prevented
the IRS from fully developing the System. The program is now funded, and a tentative date of
FY 2008 has been established for full implementation of this System.
Only the Food and Beverage and Cosmetology industry tip agreements are maintained on the
TRAC/TRDA database. The Gaming industry tip agreements are maintained in a separate
database. However, this database does not accommodate information such as the type of
agreement (for example, GITCA or TRDA). Also, it does not contain a field for an agreement
termination date or current status of a business. The IRS could not determine which tip

13
  A trust fund tax is money withheld from an employee’s wages (income, Social Security, and Medicare taxes) by
an employer and held in trust until paid to the Department of the Treasury.



                                                                                                       Page 12
                  Additional Enhancements Could Improve Tax Compliance of
                                 Employees Who Receive Tips



agreements were active because there could be several tip agreements for the same casino stored
in the database. The IRS analyst responsible for monitoring the Gaming industry must rely on
information maintained in local IRS offices to obtain employee tip income information annually
from those casinos known to be currently in business.
To obtain an overall assessment of the progress of the Tip Program and to provide consistency,
the IRS should track all tip agreements in the SWETRS once it is fully operational. This System
will contain 15 to 20 databases that can be cross-matched electronically and used to monitor,
compare, and evaluate compliance issues related to the same taxpayer. If the IRS discontinues
funding the SWETRS program, it could miss an opportunity to ensure all available efforts are
made to focus on this significant noncompliance issue.

Recommendations
Recommendation 3: To ensure data are accurately transcribed and analysis of Forms 941 and
8027 data is prioritized to expedite the collection of employment taxes, the Director, Specialty
Programs, should (1) implement data verification procedures for the transcription of Forms 8027
and (2) give priority to the identification of potential Form 941 non-filers over the identification
of Form 8027 non-filers.
       Management’s Response: IRS management agreed with this recommendation. The
       Director, Specialty Programs, will develop procedures that enhance current data
       verification procedures regarding the transcription of Forms 8027. Potential Form 941
       non-filers will be identified along with potential Form 8027 non-filers. The SB/SE
       Division currently has ongoing examination programs that identify Form 941 non-filers.
       While this will continue, it also recognizes that identification of Form 8027 non-filers
       will give rise to identification of additional Form 941 non-filers. The Division’s goal is
       to affect the tax gap by identifying the most egregious noncompliance.
Recommendation 4: To ensure all tip agreement information from every industry receives
the benefit of the SWETRS matching program, the Director, Specialty Programs, should
(1) ensure the SWETRS program remains funded through completion and, (2) once the
SWETRS program is fully operational, include the Gaming industry tip agreements in the
TRAC/TRDA database.
       Management’s Response: IRS management agreed with this recommendation. The
       SWETRS will, among other things, match numerous employment tax data sources and
       determine areas of greatest compliance risk. The Director, Specialty Programs, is
       committed to its full development and will continue to work with software developers
       and other stakeholders to ensure the SWETRS meets its goals, with an estimated
       completion date of October 2008. To augment the Tip Program, the SWETRS will
       include the Gaming industry tip agreements in the TRAC/TRDA database so they can be
       included in the automated matching process.

                                                                                            Page 13
                  Additional Enhancements Could Improve Tax Compliance of
                                 Employees Who Receive Tips



A Method to Increase Tip Reporting for All Small Businesses Is
Needed
The IRS has been unable to adequately expand the Tip Program to successfully reach some small
businesses in the Food and Beverage industry. Several factors such as limited staffing and
multiple realignments have contributed to this situation. As previously stated, millions of
additional dollars in potential tip income could be reported if the IRS provided more outreach to
such businesses in the Cosmetology and Taxi/Limo industries. The IRS is working on a
resolution to expand the Tip Program by creating a new Revenue Procedure entitled the
Attributed Tip Income Program (ATIP). The ATIP Revenue Procedure aims at increasing tip
reporting for small businesses that report at least 20 percent of their tip income as charged tips.
It will provide benefits similar to those of previous tip reporting agreements for employers and
employees who report tips at or above a minimum level of gross receipts. One-on-one meetings
with the IRS are not required to determine tip rates or eligibility. The ATIP Revenue Procedure
will also focus on all non-filers, including employers that do not file a Form 8027 and employees
that either fail to report or underreport any of their charged tips and/or cash tips.
The ATIP Revenue Procedure was approved by the Department of the Treasury on
July 11, 2006. The IRS plans to test it with the Food and Beverage industry for 3 years. For
small businesses in other industries such as the Cosmetology or Taxi/Limo industries to benefit
from this program, the IRS would need to develop similar procedures that would be specific for
each industry. If consideration is not given to developing these Revenue Procedures, the IRS
could lose the opportunity to increase the amount of tip income reported.
The IRS’ compliance objectives include collecting the proper amount of tax at the least cost.
Taxpayers expect the IRS to promote voluntary compliance by ensuring all taxpayers promptly
pay their fair share.

Recommendation
Recommendation 5: Once the ATIP Revenue Procedure is issued and has been tested with
the Food and Beverage industry for 1 year, the Director, Specialty Programs, should ensure
results of initial testing are analyzed and consider developing similar Revenue Procedures for
small businesses in other industries, such as the Cosmetology and Taxi/Limo industries, to
increase the chances of improving tip income reporting compliance.
       Management’s Response: IRS management agreed with this recommendation. The
       Director, Specialty Programs, working with the IRS Division Counsel/Associate Chief
       Counsel (Small Business/Self-Employed), the IRS Office of Chief Counsel, and internal
       and external stakeholders, ensured the ATIP Revenue Procedure was issued on July 28,
       2006. This expansion of the Tip Program allows small food and beverage establishments
       to also benefit from tip compliance agreements. When sufficient data have been captured
       to provide meaningful results, they will be analyzed to determine if a similar Revenue

                                                                                           Page 14
                       Additional Enhancements Could Improve Tax Compliance of
                                      Employees Who Receive Tips



           Procedure would be beneficial. This Revenue Procedure would apply to small businesses
           in other industries where tipping is customary, with the ultimate goal of improving tip
           income reporting compliance. The ATIP Revenue Procedure was designed as a 3-year
           pilot to provide time to assess its impact on tip reporting compliance. It will take up to
           this length of time to assess whether the ATIP Revenue Procedure has achieved its goal
           and to consider whether it is appropriate to expand and modify to other industries.
           Office of Audit Comment: Although the IRS’ suggested evaluation period is longer
           than we envisioned in our recommendation, we agree it is not unreasonable to expect
           such data capture and analysis to take up to 3 years.

An Action Plan Is Needed to Ensure Adequate Monitoring of Future
Progress
Currently, the IRS does not have an action plan to track and monitor all progress achieved for the
Tip Program. An action plan would assist the IRS in assuring that all actions planned for the
continued success of the Tip Program are taken. For example, several actions are planned and
should be monitored to ensure completion:
       •   Completion of the SWETRS program is tentatively planned for FY 2008, providing the
           program continues to be funded. This automated System was recommended in our prior
           report and has not yet been implemented due to a lack of funding.
       •   Automated matching of Form 8027 data to Form 941 data was also a recommendation
           but continues to be a manual process.
       •   Implementation of a data verification procedure is needed to ensure the accuracy of
           manual data transcription for Forms 8027.
Office of Management and Budget Circular A-12314 requires management to develop and
maintain effective internal control. Programs must operate and resources must be used
consistent with agency missions, in compliance with laws and regulations, and with minimal
potential for waste, fraud, and mismanagement.
Without an action plan to monitor the progress of all steps planned or in process, the IRS may
miss an opportunity to achieve its goal for the success of the Tip Program.




14
     Circular A-123, Management’s Responsibility for Internal Control (revised December 2004).



                                                                                                 Page 15
                  Additional Enhancements Could Improve Tax Compliance of
                                 Employees Who Receive Tips



Recommendation
Recommendation 6: To ensure plans to achieve success for the Tip Program continue to
progress, the Director, Specialty Programs should establish an action plan to monitor progress. It
should be an outline of all planned actions, potential results, responsible individuals, staff to be
allocated, and planned completion dates.
       Management’s Response: IRS management agreed with this recommendation. The
       Director, Specialty Programs, will develop an action plan to monitor progress. It will
       include an outline of all planned actions, potential results, responsible individuals, staff
       allocations, and planned completion dates consistent with the Tip Program strategy.




                                                                                           Page 16
                     Additional Enhancements Could Improve Tax Compliance of
                                    Employees Who Receive Tips



                                                                                                 Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine the progress the IRS has made in
improving the Tip Rate Determination and Education Program (the Tip Program) and expanding
it to other industries in which tipping is customary. Specifically, we reviewed the actions taken
by the IRS based on the recommendations from a previous TIGTA report.1 To accomplish the
objective, we:
I.      Determined how the IRS monitors the Tip Program nationwide.
        A. Reviewed the Program objectives and respective policy guidance issued as a result of
           the prior TIGTA report and obtained statistics currently used for measuring the
           success of the Tip Program.
        B. Obtained and analyzed a March 2006 list by State of 14,657 tip agreements for the
           Food and Beverage industry and 1,684 for the Cosmetology industry, to determine if
           there are any inconsistencies in the number of agreements obtained by the various
           offices nationwide.
II.     Determined the methodology used for reconciling the Employer’s Quarterly Federal Tax
        Return (Form 941) data to the Employer’s Annual Information Return of Tip Income and
        Allocated Tips (Form 8027)2 data.
        A. Obtained the results of the manual matching of Form 8027 data and Form 941 data
           and determined the status of the automated reconciliation of Forms 941 and 8027.
III.    Reviewed the IRS’ multiuser software application contained in the SWETRS3 used by
        Tip Program personnel to add and append records, edit fields, generate reports, and
        perform comparative analyses of agreements and establishments.




1
  Opportunities Exist to Improve the Tip Rate Education and Determination Program (Reference
Number 2001-30-076, dated May 2001).
2
  Form 8027 is an information return filed by large food and beverage establishments when the employer is required
to make annual reports to the IRS on receipts from food or beverage operations and tips reported by employees.
Generally, a large employer is one who employs more than 10 employees on a typical business day.
3
  The SWETRS is a web-based system that, when fully operational, will allow cross-matching of internal IRS
program databases, identifying noncompliant employment taxpayers for potential audits. It is currently funded for
completion in FY 2008.



                                                                                                         Page 17
                      Additional Enhancements Could Improve Tax Compliance of
                                     Employees Who Receive Tips



IV.     Obtained FY 2006 guidance for obtaining new tip agreements with industries such as
        Food and Beverage, Cosmetology, and Gaming and expanding the Tip Program to other
        industries such as Taxi/Limo.
        A. Reviewed the plans for issuance of the new ATIP Revenue Procedure to help address
           the limitation of expanding to small businesses.
        B. Obtained and analyzed TY 2004 business returns4 from the IRS Business Return
           Transaction File5 using Principle Business Activity Codes6 for the Cosmetology and
           Taxi/Limo industries to determine the amount of potential taxes assessable if
           additional outreach is conducted for these industries. There were 51,288 business tax
           returns for the Cosmetology industry and 16,477 for the Taxi/Limo industry. Data
           verification procedures were used to eliminate duplicate information obtained for this
           test. Data were verified using the IRS Integrated Data Retrieval System7 to eliminate
           amended tax return information and validate the remaining data. The data were
           determined to be sufficiently reliable.
             1. A total of 5,438 business tax returns for both industries met the criteria.
             2. Determined 4,814 of 5,438 TY 2004 business tax returns claimed tip income at an
                amount less than that meeting the SB/SE Division’s FY 2005 criteria or claimed
                no tip income.
             3. Compared the amount of actual tip income reported versus the potential tip
                income reportable.
             4. Obtained the results of FY 2005 employee tip income audits for the Cosmetology,
                Food and Beverage, and Gaming industries. We reduced the potential tip income
                reportable by 11 percent, which was the percentage of Cosmetology industry tip
                income audits8 resulting in no change to the original tax assessments.




4
  Business returns included U.S. Corporation Income Tax Return (Form 1120), U.S. Income Tax Return for an
S Corporation (Form 1120S), and U.S. Return of Partnership Income (Form 1065) matched against the Employer’s
Quarterly Federal Tax Return (Form 941) for the same tax year.
5
  The Business Return Transaction File contains the line items transcribed from all business tax returns and their
accompanying schedules or forms as the returns are processed.
6
  Principal Business Activity Codes are used to classify businesses and sole proprietorships by type of activity.
7
  This is the IRS computer system capable of retrieving or updating stored information; it works in conjunction with
a taxpayer’s account records.
8
  We applied this percentage to the Taxi/Limo industry figures because the IRS did not have any tip income audit
results available for this industry.



                                                                                                           Page 18
                     Additional Enhancements Could Improve Tax Compliance of
                                    Employees Who Receive Tips



            5. Determined the estimated amount of income tax due by multiplying the reduced
               potential tip income amount by the individual income tax rate of 15 percent.9
            6. Determined the estimated amount of both the employee and employer share of
               Social Security and Medicare taxes due by multiplying the reduced tip income
               amount by 15.30 percent.10
V.      Obtained information on transition of the Tip Program from the SB/SE Division
        Compliance function to the TEC function.
        A. Reviewed the procedures for the monitoring and soliciting of tip agreements for other
           IRS divisions, such as Large and Mid-Size Business Division.




9
  Taxes were based on the mean annual wage amounts for employees in the Cosmetology and Taxi/Limo industries
(as of May 2004 per the U.S. Bureau of Labor Statistics) and calculated using the TY 2004 individual income tax
rate of 15 percent.
10
   The TY 2004 Social Security and Medicare tax rate is 15.30 percent, which includes both the employee and
employer shares.



                                                                                                       Page 19
                 Additional Enhancements Could Improve Tax Compliance of
                                Employees Who Receive Tips



                                                                               Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Parker F. Pearson, Director
Richard T. Hayes, Audit Manager
Carole E. Connolly, Lead Auditor
Janis Zuika, Senior Auditor
Judith P. Harrald, Information Technology Specialist




                                                                                        Page 20
                 Additional Enhancements Could Improve Tax Compliance of
                                Employees Who Receive Tips



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Specialty Programs, Small Business/Self-Employed Division SE:S:SP
Director, Policy and Strategic Planning, Small Business/Self-Employed Division
SE:S:CLD:PSP
Director, Stakeholder Liaison Headquarters, Small Business/Self-Employed Division
SE:S:CLD:SLHQ
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Communications, Liaison, and Disclosure, Small Business/
Self-Employed Division SE:S:CLD




                                                                                    Page 21
                     Additional Enhancements Could Improve Tax Compliance of
                                    Employees Who Receive Tips



                                                                                               Appendix IV

                                      Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Increased Revenue – Potential; approximately $342 million in additional tax assessments
    over 5 years (see page 6).

Methodology Used to Measure the Reported Benefit:
To determine the amount of potential tip income that could be reported if the IRS would resume
soliciting new tip agreements from the Cosmetology industry and expand the Tip Program to the
Taxi/Limo industry, we obtained TY 2004 business return data1 from the IRS Business Return
Transaction File.2 Using the SB/SE Division’s FY 2005 criteria for selecting Cosmetology
industry leads, we estimated the differences in the amount of potential tip income that could have
been reported versus the actual amount of Social Security Tip Wages reported by employers on
the Employer’s Quarterly Federal Tax Return (Form 941) for the Cosmetology and Taxi/Limo
industries.
        Actual Tip Income Reported:                  $100,540,612
        Potential Tip Income Reportable:             $354,182,046
        Difference:                                  $253,641,435
We reduced this amount by 11 percent, which was the percentage of Cosmetology industry tip
income audits3 resulting in no change to the original tax assessments.
        Potential Tip Income Reportable: $253,641,435 – 11 percent = $225,740,877


1
  Business tax returns included U.S. Corporation Income Tax Return (Form 1120), U.S. Income Tax Return for an
S Corporation (Form 1120S), and U.S. Return of Partnership Income (Form 1065) matched against the Employer’s
Quarterly Federal Tax Return (Form 941) for the same tax year.
2
  The Business Return Transaction File contains the line items transcribed from all business tax returns and their
accompanying schedules or forms as the returns are processed.
3
  We also applied this percentage to the Taxi/Limo industry figures because the IRS did not have any tip income
audit results available for this industry.



                                                                                                          Page 22
                     Additional Enhancements Could Improve Tax Compliance of
                                    Employees Who Receive Tips



We determined the amount of individual income tax using the 15 percent tax bracket4 and both
the employee and employer shares of Social Security and Medicare taxes of 15.30 percent.5
        Potential Individual Income Taxes – 1 Year:                          $33,861,132
        Potential Social Security and Medicare Taxes – 1 Year:               $34,538,354
        Combined Estimated Total Taxes – 1 Year:                             $68,399,486
        Total Estimated Taxes – 5 Years:                                     $341,997,430




4
  Taxes were based on the mean annual wage amounts for employees in the Cosmetology and Taxi/Limo industries
(as of May 2004 per the U.S. Bureau of Labor Statistics) and calculated using the TY 2004 individual income tax
rate of 15 percent.
5
  The TY 2004 Social Security and Medicare tax rate is 15.30 percent, which includes both the employee and
employer shares.



                                                                                                       Page 23
     Additional Enhancements Could Improve Tax Compliance of
                    Employees Who Receive Tips



                                                   Appendix V

Management’s Response to the Draft Report




                                                         Page 24
Additional Enhancements Could Improve Tax Compliance of
               Employees Who Receive Tips




                                                    Page 25
Additional Enhancements Could Improve Tax Compliance of
               Employees Who Receive Tips




                                                    Page 26
Additional Enhancements Could Improve Tax Compliance of
               Employees Who Receive Tips




                                                    Page 27
Additional Enhancements Could Improve Tax Compliance of
               Employees Who Receive Tips




                                                    Page 28
Additional Enhancements Could Improve Tax Compliance of
               Employees Who Receive Tips




                                                    Page 29
